   July 1, 2002




Defense Infrastructure

General and Flag Officer Quarters
at Pearl Harbor, Hawaii
(D-2002-125)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline @dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

GFOQ                  General and Flag Officer Quarters
IG DoD                Inspector General of the Department of Defense
M&R                   Maintenance and Repair
NAVFAC                Naval Facilities Engineering Command
          Office of the Inspector General of the Department of Defense
Report No. D-2002-125                                                      July 1, 2002
   (Project No. D1999CG-0085.004)

                        General and Flag Officer Quarters
                            at Pearl Harbor, Hawaii

                                    Executive Summary

Who Should Read This Report and Why? This report should be read by DoD housing
and accounting officials responsible for the classification, recording, and reporting of
maintenance and repair costs associated with family housing. Proper classification and
recording is critical for accurate financial statements, and for reporting general and flag
officer quarters (GFOQ) costs to Congress.

Background. This report is one in a series about GFOQ maintenance and repair costs.
According to a Naval Facilities Engineering Command official, the Navy maintained
161 GFOQs in FY 2000, with reported maintenance and repair costs of $8,797,600. We
reviewed 17 GFOQs at Pearl Harbor, Hawaii, with budgeted maintenance and repair costs
of $1,247,300, to determine whether the Navy had properly classified interior shutter
costs as maintenance and repair. The Military Construction Appropriations Act, 2000,
section 128, allows GFOQ maintenance and repair costs up to $25,000 annually without
prior congressional notification. However, when notification of proposed spending in
excess of $25,000 was accomplished through the Service budget submissions,
congressional practice has allowed actual maintenance and repair costs for a particular
unit to exceed the approved amount by $5,000 before requiring additional notification.

Results. Navy family housing officials at Pearl Harbor improperly classified shutter
purchases, costing $36,378 for seven GFOQs, as furnishings instead of maintenance and
repair in FY 2000. As a result, Navy accounting for FY 2000 GFOQ costs was
understated by at least $36,378, Antideficiency Act violations of $11,554 may have
occurred, congressional oversight of improvement projects exceeding $3,000 was
circumvented, and Navy officials made changes to historic quarters without seeking the
concurrence of the state historic preservation office. Corrective action includes
implementation of existing guidance, an Antideficiency Act investigation, Congressional
notification of both corrected GFOQ cost reports and improvement spending, and
coordination with the Hawaii state historic preservation office. (See the Finding section
for detailed recommendations.)

Management Comments. The draft report was issued April 26, 2002. We did not
receive management comments on the draft report. We request that the Assistant
Secretary of the Navy (Financial Management and Comptroller) provide comments on
this final report by July 31, 2002.
Table of Contents

Executive Summary                                                              i

Background                                                                    1


Objectives                                                                    1


Finding
     Classification of Interior Shutters Costs for General and Flag Officer
           Quarters                                                            2

Appendixes
     A. Scope and Methodology
          Scope                                                               7
          Methodology                                                         7
     B. Prior Coverage                                                        9
     C. Criteria for Navy General and Flag Officer Quarters Housing
          Management                                                          10
     D. Report Distribution                                                   12
Background
     According to a Naval Facilities Engineering Command (NAVFAC) official, the
     Navy maintained 161 general and flag officer quarters (GFOQs) in FY 2000, with
     reported maintenance and repair (M&R) costs of $8,797,600. NAVFAC is
     responsible for administering the Navy family housing program to include
     providing family housing policy and guidance. The Navy family housing offices
     are responsible for managing GFOQ operations. We reviewed 17 GFOQs located
     at Pearl Harbor, Hawaii, with total budgeted M&R costs of $1,247,300. Our
     initial examination of cost documentation for the 17 GFOQs indicated that the
     Navy continued to improperly classify interior shutters as furnishings instead of
     M&R. Therefore, we limited the scope of our review to the seven GFOQs where
     interior shutter costs were purchased and classified as furnishings. Criteria for
     managing Navy GFOQs is discussed in Appendix C.


Objectives
     The overall audit objective was to determine the adequacy of management
     controls over the review and authorization process of GFOQ costs. Specifically,
     this report focuses on annual operations and maintenance costs for the seven
     GFOQs where the Navy incurred interior shutter costs at Pearl Harbor, Hawaii.
     See Appendix A for a discussion of the scope and methodology, and Appendix B
     for prior coverage.




                                         1
            Classification of Interior Shutters Costs
            for General and Flag Officer Quarters
            Navy family housing officials at Pearl Harbor improperly classified
            interior shutters for seven GFOQs costing $36,378, as furnishings instead
            of M&R in FY 2000. This condition occurred because NAVFAC officials
            did not comply with existing family housing guidance concerning the
            classification of furnishings and M&R costs. As a result, the Navy
            accounting for GFOQ costs at Pearl Harbor in FY 2000 was understated by
            at least $36,378. Also, Antideficiency Act violations of $11,554 may have
            occurred because the Navy exceeded the statutory limitation on annual
            M&R costs for four of the seven GFOQs. Additionally, improper
            classifications resulted in failure to comply with congressional oversight
            requirements for three improvement projects in excess of $3,000, and
            failure to coordinate the seven interior shutter projects with the state
            historic preservation office as required.


Classification of Interior Shutters
     The Navy family housing officials at Pearl Harbor improperly classified shutter
     purchases for seven GFOQs as furnishings instead of M&R in FY 2000. The
     following table shows the seven quarters affected by improper classification of
     interior shutter costs by the Navy. Included are four GFOQs where M&R costs,
     after our adjustments, exceeded the statutory limitation in FY 2000 and resulted in
     potential Antideficiency Act violations. The table also shows the three quarters
     where improvements in excess of $3,000 were performed without prior
     congressional notification.




                                          2
                                M&R Costs Including Interior Shutters

                                               Interior Audit     M&R in Potential
                            M&R      Reported Shutters Identified Excess of  ADA1
         GFOQ             Authorized M&R         Cost    M&R Limitation Violation
      A Hale Alii          $25,000   $24,979     $850 $25,829         $829    YES
      201 Marine Barracks   42,000    40,768 14,000      54,768      7,768 2  YES
      27 Makalapa           42,000    38,637    2,350    40,987          0    NO
      28 Makalapa           25,000    18,744    1,660    20,404          0    NO
      29 Makalapa           25,000    18,339    9,599    27,938      2,938    YES
      31 Makalapa          303,000   302,450    5,569 308,019           19 2  YES
      33 Makalapa           25,000    11,302    2,350    13,652          0    NO
       Totals                                 $36,378              $11,554
  1
      Antideficiency Act.
  2
      Congress approved budgets greater than $25,000 for these properties for these years. The housing
      office was permitted to exceed the approved amount by no more than $5,000 before additional
      notification and approval by Congress was required.


Compliance With Family Housing Guidance
         NAVFAC officials did not comply with existing family housing guidance
         concerning the classification of furnishings and M&R costs.

         Existing DoD and Services’ Guidance. DoD, Army, Navy, and Marine Corps
         guidance generally classifies an item as a furnishing if the item is movable, and
         classifies the item as M&R if the item is attached to the housing unit. Although
         the guidance does not specifically mention shutters, the guidance makes the
         distinction between furnishings and M&R based on manner of attachment. The
         Navy Facility Assets Data Base guidance depicts shutters as part of a building
         structure, which is consistent with classification as M&R. Army officials stated
         that they would classify interior shutters as M&R. Air Force guidance specifically
         classifies all shutters as M&R.

         Because the Chief Financial Officer of DoD is responsible for developing and
         implementing DoD-wide financial management systems and overseeing financial
         management activities, we contacted officials in the Military Construction
         Directorate, Office of the Under Secretary of Defense (Comptroller) to determine
         the proper classification of interior shutters. Directorate officials stated that the
         interior shutters should be considered part of the housing unit and should not have
         been classified as furnishings. The officials emphasized the need for consistency
         among the Services in reporting M&R for GFOQs.

         NAVFAC Opinion. NAVFAC counsel stated that interior shutters should be
         treated the same as draperies, curtains, and carpets. However, the NAVFAC
         counsel’s statement was not consistent with existing DoD and Navy guidance.
         Although the guidance defines draperies and curtains as furnishings, it makes a
         distinction concerning carpets based on the method of installation or attachment.

                                                    3
    Area rugs are classified as furnishings because they are moveable, while
    wall-to-wall carpeting is attached to the floor and is classified as M&R. The
    NAVFAC counsel comparison of interior shutters to draperies and curtains is
    tenuous because interior shutters are permanently attached to the housing unit
    while draperies and curtains are not. Further, the installation of interior shutters is
    fundamentally the same as interior doors because nails, hinges, and screws are
    used to secure both to the building. The interior shutters in question were made
    from polymer, which was inconsistent with the state historic preservation office’s
    requirements, and custom cut, then nailed or screwed to the window molding,
    caulked, and painted. The following picture illustrates the interior shutters
    installed in GFOQs at Pearl Harbor, Hawaii.




Impacts of GFOQ Cost Classification Errors
    The Navy accounting for GFOQ costs at Pearl Harbor in FY 2000 was understated
    by at least $36,378. Also, Antideficiency Act violations may have occurred
    because the Navy exceeded the statutory limitation by $11,554 on annual M&R
    costs for four of the seven GFOQs. Additionally, improper classifications resulted
    in failure to comply with congressional oversight requirements for three
    improvement projects in excess of $3,000 and failure to coordinate the seven
    interior shutter projects with the state historic preservation office as required.

    Reliability of GFOQ Costs at Pearl Harbor. The improper classification of
    interior shutters resulted in Navy accounting for FY 2000 GFOQ M&R costs for
    seven GFOQs located at Pearl Harbor to be understated by at least $36,378.
    Congress requires the Under Secretary of Defense (Comptroller) to annually
    report all M&R costs for each individual GFOQ to the appropriation committees.



                                           4
Because Navy housing officials improperly charged interior shutter costs to
furnishings, the Navy reports on GFOQ costs for Pearl Harbor understated M&R
costs by at least $36,378.

Annual M&R Limitation Exceeded. Because the Navy did not properly classify
the shutter costs as M&R, the FY 2000 statutory limitation on annual M&R costs
for four GFOQs at Pearl Harbor was exceeded and, therefore, may have resulted
in violations of the Antideficiency Act (section 1341, title 31, United States
Code). Accordingly, the Assistant Secretary of the Navy (Financial Management
and Comptroller) should investigate the FY 2000 M&R costs for the four quarters
at Pearl Harbor for potential Antideficiency Act violations and fix responsibility.
If violations occurred, the Assistant Secretary should comply with the reporting
requirements in DoD Directive 7200.1, “Administrative Control of
Appropriations,” May 4, 1995, and DoD 7000.14-R, volume 14, “Administrative
Control of Funds and Antideficiency Act Violations,” March 2001. The Assistant
Secretary should also verify that the GFOQ costs have been corrected for
FY 2000, and the revised costs are reported to the Congress.

Congressional Oversight of Improvement Projects. The Navy decision to
classify interior shutter costs as furnishings circumvented congressional oversight
of improvement projects exceeding $3,000. Three of the seven shutter purchases
shown in the table exceeded $3,000. According to OPNAVINST 11101.19E,
improvements in excess of $3,000 require prior congressional notification and
approval. Classification of these three shutter purchases as furnishings by the
Navy circumvented the requirement for congressional notification and approval.
The Assistant Secretary of the Navy (Financial Management and Comptroller)
should verify that the appropriate congressional notifications of improvements are
made.

Coordination With State Historic Preservation Office. The Navy did not
coordinate the installation of interior shutters in Hawaii with the state historic
preservation office for all seven GFOQs as required by the National Historic
Preservation Act of 1966. The act requires that the character of historic
properties, including windows and window frames, be retained and preserved. A
Navy official contended that interior shutters were furnishings and did not require
coordination with the state historic preservation office. However, the state
historic preservation official disagreed, stating that interior shutters were not
furnishings, but instead were part of the building, and coordination was required.
The preservation official said interior shutters were probably not period
appropriate and that a more appropriate alternative should have been considered.
The official also emphasized that coordination with the state historic preservation
office was not optional. Remedies available to the preservation office include
ordering the removal of the interior shutters.




                                     5
Recommendations
    We recommend that the Assistant Secretary of the Navy (Financial Management
    and Comptroller):

            1. Initiate actions to investigate potential Antideficiency Act violations at
    the following general and flag officer quarters located at Naval Base Pearl Harbor,
    Hawaii for FY 2000 maintenance and repair costs:

                    A Hale Alii,

                    201 Marine Barracks,

                    29 Makalapa, and

                    31 Makalapa.

            2. Verify that general and flag officer quarters costs listed in this report
    have been corrected for FY 2000, and update congressional reporting of general
    and flag officer quarters cost to disclose accounting error corrections and spending
    for improvements.

           3. Direct the Commander, Naval Facilities Engineering Command to
    implement the existing guidance by classifying items attached to the housing unit
    as maintenance and repair.

           4. Direct that current and future installations of interior shutters in
    quarters that are on, or eligible for, the listing in the register of historic properties
    be coordinated with state historic preservation officers.


Management Comments Required
    The Assistant Secretary of the Navy (Financial Management and Comptroller) did
    not comment on a draft of this report. We request that the Assistant Secretary of
    the Navy (Financial Management and Comptroller) provide comments on the final
    report.




                                            6
Appendix A. Scope and Methodology
Scope
    Work Performed. We conducted the audit of management controls over the
    review and authorization process for GFOQ costs as a followup to our previous
    four audits on GFOQs. For a listing of prior reports, see Appendix B. We
    reviewed 17 GFOQs with budgeted M&R costs of $1,247,300. We reviewed the
    detailed quarterly cost reports for all 17 GFOQs to determine whether the Navy
    had properly classified all of the interior shutter costs as M&R.

    Limitations to Scope. Upon initial examination of FY 2000 cost documentation
    for the 17 GFOQs at Pearl Harbor, we determined that the Navy was still
    improperly classifying interior shutters as furnishings. In IG DoD Report
    No. D-2001-027, “Navy Management Controls Over General and Flag Officer
    Quarters Costs,” December 26, 2000, the Navy never objected to the classification
    of shutters as M&R and concurred with the finding and recommendations in the
    report. As a result of the continuing misclassification of interior shutters by the
    Navy, we limited the scope of our review to the seven GFOQs with reported
    M&R costs of $455,240 where interior shutters were purchased and improperly
    classified as furnishings. The limited scope of our review did not include enough
    of the housing office operations to perform an evaluation of the management
    control program.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD Infrastructure and Financial Management high-risk areas.


Methodology
    Use of Computer-Processed Data. To achieve the audit objectives, we obtained
    and reviewed computer-processed data for interior shutters costs contained in
    Microsoft Word reports generated by the family housing office at Pearl Harbor.
    The family housing office used the data from these reports to annually report all
    M&R costs for each individual GFOQ to Congress. Our previous review of Navy
    accounting for GFOQ costs showed discrepancies that cast doubt on the validity
    of data. We reconfirmed the interior shutter costs through officials of the Navy
    internal review office in Hawaii, but did not conduct a thorough examination of
    all interior shutter records because the Navy had not fully implemented the
    recommendations of the prior audit. Nonetheless, we relied on this data and
    believe that the opinions, conclusions, and recommendations in this report are
    valid.

    Universe and Sample. To achieve the audit objectives, we judgmentally selected
    Pearl Harbor, Hawaii. We selected Pearl Harbor because it had a large quantity of
    GFOQs compared to other Navy installations. Further, the total M&R costs for
    the GFOQs at Pearl Harbor represented approximately one-seventh of the overall
    Navy GFOQ M&R costs for FY 2000.
                                         7
Contacts During the Audit. We visited or contacted individuals and
organizations within DoD and the state historic preservation office in Hawaii.
Further details are available upon request.

Audit Dates and Standards. We performed this audit from November 2000
through May 2001, and then suspended work due to other higher priority projects.
We resumed and completed field work in February 2002. Our work was
performed in accordance with generally accepted government auditing standards
except for the scope limitation discussed above.




                                     8
Appendix B. Prior Coverage
       During the past 5 years, the Inspector General of the Department of Defense, the
       Naval Inspector General, the Naval Audit Service, and the Air Force Audit
       Agency each issued reports that discussed GFOQs.


Inspector General of the Department of Defense (IG DoD)
       IG DoD Report No. D-2002-048, “General and Flag Officer Quarters at Fort
       Shafter, Hawaii; and Fort McPherson, Georgia,” February 12, 2002

       IG DoD Report No. D-2002-020, “General Officer Quarters at Kaneohe Bay,
       Hawaii; Camp Pendleton, California; and Albany Georgia,” December 5, 2001

       IG DoD Report No. D-2001-027, “Navy Management Controls Over General and
       Flag Officer Quarters Costs,” December 26, 2000

       IG DoD Report No. D-2000-071, “Maintenance and Repair of DoD General and
       Flag Officer Quarters,” January 27, 2000


Navy
       Office of the Naval Inspector General, Report of Investigation, “Senior Official
       Case 990441; Alleged Misuse of Operating Funds for Maintenance and Repair of
       Flag Officer Quarters,” October 27, 1999 (For Official Use Only)

       Naval Audit Service Report No. 011-99, “Management of Family Housing
       Operations and Maintenance Resources,” December 4, 1998 (For Official Use
       Only)

Air Force
       Air Force Audit Agency, Audit Report 99052030, “United States Air Force
       Academy General Officer Quarters,” October 26, 1999




                                           9
Appendix C. Criteria for Navy General and Flag
            Officer Quarters Housing
            Management
   Section 1341, Title 31, United States Code. “Limitations on Expending and
   Obligating Amounts,” prescribes that an officer or employee of the U.S.
   Government not make or authorize an expenditure or obligation exceeding an
   amount available in an appropriation or fund for the expenditure or obligation.

   Military Construction Appropriations Act, 2000, Section 128. The act
   (Public Law 106-52) specifically requires that M&R costs not exceed $25,000 per
   GFOQ annually without prior congressional notification.

   National Historic Preservation Act of 1966. This act (section 470f, title 16,
   United States Code) creates a list of properties and provides guidelines for
   preservation, rehabilitation, restoration, and reconstruction. Specifically,
   section 106 of the act requires that a Federal agency involved in a proposed
   project or activity is responsible for initiating and completing the review process.
   The agency must confer with state historic preservation officers when planning to
   make changes to distinctive materials, features, finishes, and construction
   techniques or examples of craftsmanship that characterize a property. The act
   treats a property that is eligible to be placed on the list of historic properties the
   same as a property actually on the list of historic properties. To be eligible, a
   property generally must be 50 years old or older. All of the GFOQs located at
   Pearl Harbor are either eligible or already on the list of historic properties.

   DoD Directive 4710.1. “Archeological and Historic Resources Management,”
   June 21, 1984, provides policy regarding procedures and responsibilities for the
   management of archeological and historic resources under DoD control.
   Specifically, this policy states that DoD Components shall use historic properties
   whenever available and economical. The policy requires each DoD installation to
   maintain a historic preservation plan for identification, evaluation, and protection
   for historic properties in consonance with other Federal, state, and local historic
   preservation programs. DoD Components also need to provide the disposal plans
   to the state historic preservation officer for review before disposing of significant
   historic properties that exceed DoD needs.

   DoD 7000.14-R. “Financial Management Regulation,” volume 6, chapter 9,
   “Reporting Policy and Procedures,” provides guidance for establishing and
   maintaining uniform budget program accounts for the accumulation of obligations
   incurred for the family housing operations and maintenance program. The
   Regulation defines the basic scope and content of which costs should be
   accumulated in the furnishings account. Furnishings costs include initial
   acquisition, maintenance, repair, and replacement of furnishings, furniture, and
   movable household equipment.

   DoD 4165.63-M. “DoD Housing Management,” September 1993, requires that
   the maintenance, improvement, or rehabilitation of family housing quarters on the

                                         10
National Register of Historic Places or under review for such listing shall comply
with DoD Directive 4710.1. Further, consultation with the state historic
preservation officer is required before alteration of these structures, including
demolition.

OPNAVINST 11101.19E. “Management of Flag and General Officer Quarters,”
August 7, 1996, provides policy regarding the management of public quarters
assigned to general and flag officers. Specifically, this instruction outlines annual
cost limitations on GFOQ M&R and improvements (including alterations and
additions) at $25,000 and $3,000, respectively. Congressional notification and
approval is needed for M&R greater than $25,000 or improvements greater than
$3,000. The housing office can exceed an approved amount greater than $25,000
by no more than $5,000, if emergent or safety-related requirements are
encountered, before additional notification and approval is required.

Naval Facilities Engineering Command P-930. “Navy Family Housing
Manual,” July 1999, provides guidance on the organization, management,
programming, acquisition, and staffing of Navy family housing. The manual
contains specific guidance on the classification of furnishings, M&R, and
improvements as they relate to Navy family housing. This guidance does not
specifically address the classification of interior shutters. However, the guidance
does distinguish the classification of an item as furnishings or M&R based on a
determination of whether the item is movable or permanently installed. Movable
items are considered furnishings while permanently installed items are considered
M&R.

NAVSO P-1000-3. Navy Comptroller Manual, volume 3, “Appropriation Cost
and Property Accounting (Field),” January 1997, provides a uniform system of
recording and reporting of costs for the operation and maintenance of family
housing. Similar to the P-930, the Comptroller Manual defines furnishings as
movable items that are not part of the dwelling unit. Further, the guidance for the
Navy Facility Assets Data Base found in the Comptroller Manual prescribes that
interior shutters are to be accounted for as part of the building (dwelling unit) and,
therefore, should not be classified as furnishings.




                                     11
Appendix D. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Facilities Engineering Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform
                                          12
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Garold E. Stephenson
Robert K. West
Stephen T. Hampton
David L. Spargo
Wei K. Wu
Kevin T. O’Connor
